        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
Federal Energy Regulatory
Commission's Fiscal Year 2012
Financial Statement Audit




OAS-FS-13-03                     November 2012
                                  Department of Energy
                                    Washington, DC 20585

                                       November 15, 2012


MEMORANDUM FOR THE CHAIRMAN, FEDERAL ENERGY REGULATORY
               COMMISSION



FROM:                    Rickey R. Hass
                         Deputy Inspector General
                            for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Federal Energy Regulatory Commission's Fiscal
                         Year 2012 Financial Statement Audit

The attached report presents the results of the independent certified public accountants' audit of
the Federal Energy Regulatory Commission's (Commission) balance sheets as of September 30,
2012 and 2011, and the related statements of net costs, changes in net position, budgetary
resources and custodial activity.

To fulfill the Office of Inspector General's (OIG) audit responsibilities, we contracted with the
independent public accounting firm of KPMG, LLP (KPMG) to conduct the audit, subject to our
review. KPMG is responsible for expressing an opinion on the Commission's financial
statements and reporting on applicable internal controls and compliance with laws and
regulations. The OIG monitored audit progress and reviewed the audit report and related
documentation. This review disclosed no instances where KPMG did not comply, in all material
respects, with generally accepted Government auditing standards. The OIG did not express an
independent opinion on the Commission's financial statements.

KPMG concluded that the financial statements present fairly, in all material respects, the
financial position of the Commission as of and for the years ended September 30, 2012 and
2011, and its net costs, changes in net position, budgetary resources and custodial activities for
the years then ended, in conformity with United States generally accepted accounting principles.

The auditors' review of the Commission's internal control structure and compliance with certain
laws and regulations disclosed no instances of noncompliance or other matters required to be
reported under generally accepted Government auditing standards or applicable Office of
Management and Budget guidance.

                                                                      Report No.: OAS-FS-13-03

Attachment
                                              2


cc: Executive Director, Federal Energy Regulatory Commission
    Chief Financial Officer, Federal Energy Regulatory Commission
    Director, Internal Controls and Evaluation Division, Federal Energy Regulatory Commission
    Acting Deputy Chief Financial Officer, CF-2
    Director, Office of Finance and Accounting, CF-10
    Director, Office of Financial Risk, Policy and Controls, CF-50
    Assistant Director, Office of Financial Risk, Policy and Controls, CF-50
    Audit Resolution Specialist, Office of Financial Risk, Policy and Controls, CF-50
    Team Leader, Office of Financial Risk, Policy and Controls, CF-50



http://www.ferc.gov/about/strat-docs/2012-audit.pdf
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                         Independent Auditors’ Report


The Federal Energy Regulatory Commission and the
Inspector General, United States Department of Energy:

We have audited the accompanying balance sheets of the Federal Energy Regulatory Commission (the
Commission) as of September 30, 2012 and 2011, and the related statements of net cost, changes in net
position, budgetary resources, and custodial activity (hereinafter referred to as “financial statements”) for
the years then ended. The objective of our audits was to express an opinion on the fair presentation of these
financial statements. In connection with our fiscal year 2012 audit, we also considered the Commission’s
internal control over financial reporting and tested the Commission’s compliance with certain provisions of
applicable laws, regulations, and contracts that could have a direct and material effect on these financial
statements.

Summary
As stated in our opinion on the financial statements, we concluded that the Commission’s financial
statements as of and for the years ended September 30, 2012 and 2011, are presented fairly, in all material
respects, in conformity with U.S. generally accepted accounting principles.

As discussed in our Opinion on the Financial Statements, the Commission changed its presentation for
reporting the statement of budgetary resources in fiscal year 2012.

Our consideration of internal control over financial reporting was not designed to identify all deficiencies
in internal control over financial reporting that might be deficiencies, significant deficiencies, or material
weaknesses. We did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses as defined in the Internal Control Over Financial Reporting section of
this report.

The results of our tests of compliance with certain provisions of laws, regulations, and contracts disclosed
no instances of noncompliance or other matters that are required to be reported under Government Auditing
Standards, issued by the Comptroller General of the United States, and Office of Management and Budget
(OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.

The following sections discuss our opinion on the Commission’s financial statements; our consideration of
the Commission’s internal control over financial reporting; our tests of the Commission’s compliance with
certain provisions of applicable laws, regulations, and contracts; and management’s and our
responsibilities.

Opinion on the Financial Statements
We have audited the accompanying balance sheets of the Federal Energy Regulatory Commission as of
September 30, 2012 and 2011, and the related statements of net cost, changes in net position, budgetary
resources, and custodial activity for the years then ended.


                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Federal Energy Regulatory Commission
November 6, 2012
Page 2 of 4




In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Federal Energy Regulatory Commission as of September 30, 2012 and 2011, and
its net costs, changes in net position, budgetary resources, and custodial activity for the years then ended,
in conformity with U.S. generally accepted accounting principles.

As discussed in Note 2 to the financial statements, the Commission changed its presentation for reporting
the Statement of Budgetary Resources in fiscal year 2012, based on new reporting requirements under
OMB Circular No. A-136, Financial Reporting Requirements. As a result, the Federal Energy Regulatory
Commission’s statement of budgetary resources for fiscal year 2011 has been adjusted to conform to the
current year presentation.

U.S. generally accepted accounting principles require that the information in the Management’s Discussion
and Analysis section be presented to supplement the financial statements. Such information, although not a
part of the financial statements, is required by the Federal Accounting Standards Advisory Board who
considers it to be an essential part of financial reporting for placing the financial statements in an
appropriate operational, economic, or historical context. We have applied certain limited procedures to the
required supplementary information in accordance with auditing standards generally accepted in the United
States of America, which consisted of inquiries of management about the methods of preparing the
information and comparing the information for consistency with management’s responses to our inquiries,
the financial statements, and other knowledge we obtained during our audits of the financial statements.
We do not express an opinion or provide any assurance on the information because the limited procedures
do not provide us with sufficient evidence to express an opinion or provide any assurance.

Our audits were conducted for the purpose of forming an opinion on the financial statements as a whole.
The information in the Performance Report section and the Appendices of the Performance and
Accountability Report are presented for the purposes of additional analysis and are not a required part of
the financial statements. Such information has not been subjected to the auditing procedures applied in the
audits of the financial statements, and accordingly, we do not express an opinion or provide any assurance
on them.

Internal Control Over Financial Reporting
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
Responsibilities section of this report and was not designed to identify all deficiencies in internal control
over financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our
fiscal year 2012 audit, we did not identify any deficiencies in internal control over financial reporting that
we consider to be material weaknesses, as defined above.

We noted certain additional matters that we will report to management of the Commission in a separate
letter.
Federal Energy Regulatory Commission
November 6, 2012
Page 3 of 4




Compliance and Other Matters
The results of our tests of compliance as described in the Responsibilities section of this report, exclusive
of those referred to in the Federal Financial Management Improvement Act of 1996 (FFMIA), disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed no instances in which the Commission’s financial management
systems did not substantially comply with the (1) Federal financial management systems requirements, (2)
applicable Federal accounting standards, and (3) the United States Government Standard General Ledger at
the transaction level.

                                                *******

Responsibilities
Management’s Responsibilities. Management is responsible for the financial statements; establishing and
maintaining effective internal control over financial reporting; and complying with laws, regulations, and
contracts applicable to the Commission.

Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2012 and 2011
financial statements of the Commission based on our audits. We conducted our audits in accordance with
auditing standards generally accepted in the United States of America; the standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller General of the United
States; and OMB Bulletin No. 07-04. Those standards and OMB Bulletin No. 07-04 require that we plan
and perform the audits to obtain reasonable assurance about whether the financial statements are free of
material misstatement. An audit includes consideration of internal control over financial reporting as a
basis for designing audit procedures that are appropriate in the circumstances, but not for the purpose of
expressing an opinion on the effectiveness of the Commission’s internal control over financial reporting.
Accordingly, we express no such opinion.

An audit also includes:

•     Examining, on a test basis, evidence supporting the amounts and disclosures in the financial
      statements;
•     Assessing the accounting principles used and significant estimates made by management; and
•     Evaluating the overall financial statement presentation.
We believe that our audits provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2012 audit, we considered the Commission’s internal control
over financial reporting by obtaining an understanding of the Commission’s internal control, determining
whether internal controls had been placed in operation, assessing control risk, and performing tests of
controls as a basis for designing our auditing procedures for the purpose of expressing our opinion on the
financial statements, but not for the purpose of expressing an opinion on the effectiveness of the
Commission’s internal control over financial reporting. Accordingly, we do not express an opinion on the
effectiveness of the Commission’s internal control over financial reporting. We did not test all internal
Federal Energy Regulatory Commission
November 6, 2012
Page 4 of 4




controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity
Act of 1982.

As part of obtaining reasonable assurance about whether the Commission’s fiscal year 2012 financial
statements are free of material misstatement, we performed tests of the Commission’s compliance with
certain provisions of laws, regulations, and contracts, noncompliance with which could have a direct and
material effect on the determination of the financial statement amounts, and certain provisions of other
laws and regulations specified in OMB Bulletin No. 07-04, including the provisions referred to in Section
803(a) of FFMIA. We limited our tests of compliance to the provisions described in the preceding
sentence, and we did not test compliance with all laws, regulations, and contracts applicable to the
Commission. However, providing an opinion on compliance with laws, regulations, and contracts was not
an objective of our audit and, accordingly, we do not express such an opinion.

                                  ______________________________

This report is intended solely for the information and use of the Commission’s management, the
Department of Energy’s Office of Inspector General, OMB, the U.S. Government Accountability Office,
and the U.S. Congress and is not intended to be and should not be used by anyone other than these
specified parties.




November 6, 2012
                                                                  IG Report No. OAS-FS-13-03

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report that would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:
                             Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
